No.

L9-_

IN Tnp

Supreme 6,ourt of tbe @nrte! btsteg
Rspugtrc or KazarH srAN,
Petitioner,
v.

ANerorre SrArr, GeeRrEr Srlrr,

Ascotr,t GRoue, S.A., ANo
Tpnne RAF TRANs TReInn.IG LTo.,

Respondents.

Petition For a Writ of Certiorari
to the United States Court of Appeals
for the District of Columbia Circuit
CERTIFICATE OF SERVICE

I, Jonathan Franklin, a member of the Bar of this Court, certify that on this
3rd day of September, 2019, three copies of the Republic of Kazakhstan's Petition

for a Writ of Certiorari in the above-captioned case were deposited with Federal
Express for two-day delivery to counsel listed below, as required by Supreme Court
Rule 29.5ft), and an electronic copy was sent by email to all counsel involved:
James E. Berger
Charlene C. Sun
KrNc & Spar,nwc LLP
1185 Avenue of the Americas, 34th Floor
New York, NY 10036
(2r2) 556-2100
jberger@kslaw.com
csun@kslaw.com
Counsel for Respondents

I further certifr that all parties required to be served have been served.

than S. Franklin
Rosn Ful,snrcHr US LLP
9th Street, NW, Suite 1000
Washington, DC 20001
ORTON

(2O2) 662-0466

Counsel for Petitioner

-2-

